September 17, 2009

MEGAN J. BRENNAN
VICE PRESIDENT, EASTERN AREA OPERATIONS

SUBJECT: Audit Report – Fiscal Year 2009 Kentuckiana District
         Business Mail Entry Unit Financial Risk Audit
         (Report Number FF-AR-09-221)

This report presents the results of our financial risk audit of the Kentuckiana District
(Project Number 09BD016FF000). We conducted this self-initiated audit at five
judgmentally selected business mail entry units (BMEU) to evaluate financial risk as
identified by U.S. Postal Service Office of Inspector General (OIG) Performance and
Results Information System (PARIS) models. See Appendix A for additional information
about this audit.

Conclusion

District management did not effectively implement all required internal controls in the
Kentuckiana District. Specifically, district management did not effectively monitor all
cancelled and inactive advance deposit accounts because the scorecard they used for
monitoring did not have accurate and complete data. Further, district management did
not effectively manage the accurate and timely entry of postage statement data for
individual units because the district, as a whole, was within the target error rate goal of
2 percent. Lastly, district management did not effectively monitor or manage the review
of PostalOne! control overrides because they were not aware of requirements. The
Postal Service has an increased risk that mailings will not meet standards and it will
lose revenue when controls are not effective or followed. We identified $123,560 in
monetary impact for recoverable revenue loss1 and $108,182 in non-monetary impact
for revenue at risk.2

Closing Advanced Deposit Accounts

District management did not effectively monitor and require units to close all cancelled
and inactive advance deposit accounts. District management thought they effectively
monitored the advanced deposit accounts based on the fiscal year (FY) 2009 District
1
  Revenue that can be collected for goods delivered or services rendered.
2
  Revenue the Postal Service is at risk of losing (for example, when a mailer seeks alternative solutions for services
the Postal Service currently provides).
Fiscal Year 2009 Kentuckiana District Business                                                      FF-AR-09-221
 Mail Entry Unit Financial Risk Audit


Manager Financial Control – Eastern Area scorecard; however, we determined the
scorecard did not identify all potentially inactive accounts. Headquarters Business Mail
Acceptance (BMA) provided the area with an inactive account status e-mail, as well as
the BMA Non-Active Accounts Report. The area relied on the status e-mail to identify
inactive accounts in its scorecard to the districts instead of the more complete Non-
Active Accounts Report. The district relied on the scorecard to monitor inactive
accounts and did not consider the data in the Non-Active Accounts Report. As a result,
units did not close 382 cancelled and inactive accounts valued at $123,560. Since our
audit visits, the units closed 366 of these accounts. See Appendix B for our detailed
analysis of this topic.

We are not making a recommendation addressing how BMA communicates inactive
accounts to the Eastern Area. We will address this issue separately in our FY 2009
Financial Installation Audit – BMEU capping report,3 which will summarize Postal
Service-wide issues relating to BMEUs.

We recommend the Vice President, Eastern Area Operations, instruct the area Finance
Manager and Kentuckiana District Manager to:

1. Evaluate inactive account data provided in the Business Mail Acceptance Non-
   Active Accounts Report and ensure management uses all inactive account data to
   monitor inactive accounts.

Timely Entering Postage Statements

District management did not effectively manage the accurate and timely entry of
postage statement data in the PostalOne! system. We reviewed 404 postage
statements and identified 92 entered into PostalOne! anywhere from 1 to 13 days after
the date of mailing instead of at the time of mailing.4 Employees sometimes entered
incorrect mailing dates in PostalOne! because they were not always aware of the
correct policies and procedures for determining and recording the date of mailing.

District management monitored delayed statements weekly; however, they did not
actively manage timely entry of postage statement data at the unit level because they
relied on a report5 indicating the district average, as a whole, met the established
2 percent late postage statement goal. The relaxed oversight resulted in some timely
entered statements appearing to be entered late into PostalOne!, and some late entered
statements appearing to be entered timely. Based on these results, we will report
$108,182 as non-monetary impact for revenue at risk (Appendix C). See Appendix B
for our detailed analysis of this topic.


3
  Project Number 09BD002FF000 is associated with audits conducted in support of the audit of the U.S. Postal
Service’s financial statements.
4
  Handbook DM-109, Business Mail Entry, Table 3-6.1, item 18.
5
  National Delayed Postage Statement report obtained from the BMA website.




                                                        2
Fiscal Year 2009 Kentuckiana District Business                                                     FF-AR-09-221
 Mail Entry Unit Financial Risk Audit


We recommend the Vice President, Eastern Area Operations, instruct the Kentuckiana
District Manager to:

2. Effectively communicate policies and procedures related to recording the
   appropriate date of mailing in PostalOne!, including when to correct mailer-provided
   dates.

3. Actively manage timely entry of postage statement data at the unit level.

PostalOne! System Overrides

District management did not effectively monitor or manage the review of PostalOne!
control overrides. These control overrides occur when a clerk decides to continue
processing a mailing even though the mailing data entered does not conform to control
parameters established in the system. District management did not realize unit
management was not always reviewing the PostalOne! overrides.6 Through interviews
and a review of unit records, we determined unit management did not always generate
a daily override report and did not verify the appropriateness of all overrides.7 Two units
that reviewed overrides did not review all of them because the volume was large, the
overrides were routine, or the units did not understand some override descriptions. The
remaining three units never generated the report. District management was not aware
of the requirement for units to review overrides daily and for the district to provide
ongoing oversight. As a result, the Postal Service has reduced assurance that mailings
meet standards for the rate claimed and that they are collecting proper postage.
Automatic, routine, and inaccurate overrides hinder the supervisor’s ability to effectively
review and monitor all overrides.

During our audit, we identified several systemic issues with PostalOne! overrides. We
will address these issues separately in our FY 2009 Financial Installation Audit – BMEU
report.

    •   Some overrides may be executed without the BMEU clerks’ knowledge due to an
        application that automatically populates the override passwords if the application
        is not turned off daily.8

    •   PostalOne! requires clerks to process overrides for some routine transactions
        that should not require overrides. Headquarters BMA suggested adding a
        checkbox to the data entry fields to reduce the number of overrides, but
        management denied the request due to budgetary constraints.

    •   Supervisors must review the PostalOne! Override Report daily and take
        corrective action, as needed. However, we identified override descriptions
6
  Handbook DM-109, Exhibit 1-1, page 2, Revenue Protection Responsibilities, item 4.
7
  Handbook DM-109, Exhibit 1-2, page 3, Revenue Protection Responsibilities, item 14.
8
  This application (called v_Go) resides on the Advanced Computing Environment (ACE) and ACE II.




                                                       3
Fiscal Year 2009 Kentuckiana District Business                                FF-AR-09-221
 Mail Entry Unit Financial Risk Audit


        inaccurately reported, missing descriptions for overrides of metered and
        precanceled stamp mailings, and lack of clarity among other descriptions.

We are not making a recommendation to address system changes. We will address
this issue separately in our FY 2009 Financial Installation Audit – BMEU report.

We recommend the Vice President, Eastern Area Operations, instruct the Kentuckiana
District Manager to:

4. Require unit management to review PostalOne! control overrides and require the
   business mail entry Manager to establish a system to monitor compliance. Until
   Postal Service Headquarters resolves the system limitations, we suggest units place
   increased emphasis on reviewing overrides unaffected by system limitations such as
   fees not paid, negative balances, and bypass verifications.

Management’s Comments

Management agreed with our findings and recommendations. Management noted that
planned PostalOne! technology enhancements scheduled for October 2009 will
automatically close inactive accounts and move remaining balances into a
miscellaneous revenue account, reducing the number of inactive accounts. Once
management implements the technology enhancements, they intend to remove the
inactive accounts from the area scorecard. Additionally, the Eastern Area issued a
memorandum on September 9, 2009, asking District Managers to ensure units comply
with Management Instruction DM 707-2009-2, Compliance with Timely and Complete
Postage Statement Entry Requirements. The letter asked the districts to actively
manage the timely entry of postage statements, overrides, and bypass verifications.
See Appendix D for management’s comments in their entirety.

Evaluation of Management’s Comments

The U.S. Postal Service OIG considers management’s comments responsive to the
recommendations in the report.




                                                 4
Fiscal Year 2009 Kentuckiana District Business                              FF-AR-09-221
 Mail Entry Unit Financial Risk Audit


We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Kevin Ellenberger, Director,
Field Financial – East, or me at (703) 248-2100.




John E. Cihota
Deputy Assistant Inspector General
 for Financial Accountability

Attachments

cc: Joseph Corbett
    Steven J. Forte
    Vincent H. DeVito, Jr.
    Pritha N. Mehra
    Eric R. Faber
    Chris L. Christenbury
    Sarah A. Stubbs
    Steven R. Phelps
    Bill Harris




                                                 5
Fiscal Year 2009 Kentuckiana District Business                                 FF-AR-09-221
 Mail Entry Unit Financial Risk Audit


                         APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The Postal Service established BMEUs for authorized mailers to present business
mailings. The Postal Service requires mailers to properly prepare all mailings, take
them to an approved BMEU, and pay for them before they enter the mailstream, unless
otherwise authorized by the Pricing and Classification Service Center (PCSC) located in
New York, New York.

The PostalOne! system is the Postal Service’s primary system for recording business
mail and Periodicals transactions. The PostalOne! system allows users to enter
postage statements and other financial transactions and to retrieve reports necessary to
manage the day-to-day business of their units. It also allows customers to submit
postage statements and other information to the Postal Service through a web-based
process.

This is an OIG-initiated audit to assess BMEU processes at the Kentuckiana District
based on our BMEU PARIS Model. The model uses PostalOne! data to assign risk for
15 factors based on compliance and ranks the Postal Service’s 74 districts.

FY 2009, Quarter II results indicate the Kentuckiana District was the second highest risk
district nationwide and the highest in the Eastern Area. The model identified
approximately $14 million in "at risk" transactions and inactive accounts in the district.
The transactions included the dollar value of mailings where BMEU personnel
processed mailings using a system override.

OBJECTIVE, SCOPE, AND METHODOLOGY

The objective of our audit was to determine whether internal controls over postage
statements, transaction overrides, and customer accounts are in place and effective at
selected high-risk BMEUs within the Kentuckiana District.

We reviewed permit imprint, Periodicals, and Business Reply Mail/Postage Due
accounts for inactivity and negative balances. We conducted interviews and analyzed
user overrides of controls in the PostalOne! system to determine their validity. For the
April 2009 reporting period, we reviewed all postage statements entered late in
PostalOne!, according to its own records, and randomly selected 300 from the
remaining 8,777 permit imprint and Periodicals postage statements to determine
whether employees entered postage statement data timely. We interviewed district
management to determine what procedures were in place to monitor BMEU financial
risk factors.

We traced recorded financial transactions to and from supporting documentation and
assessed the reliability of computerized data by verifying the computer records to




                                                 6
Fiscal Year 2009 Kentuckiana District Business                                     FF-AR-09-221
 Mail Entry Unit Financial Risk Audit


source documents. We used Postal Service instructions, manuals, policies, and
procedures as criteria to evaluate internal controls and data reliability. We also
evaluated whether the internal control structure over postage statements, transaction
overrides, and customer accounts was implemented and functioning as designed. We
interviewed supervisors and employees and observed operations at the following five
judgmentally selected PostalOne! sites in the Kentuckiana District of the Eastern Area:
Louisville, Campbellsville, Lexington, Evansville, and Lebanon Junction.

We conducted this performance audit from April through September 2009 in accordance
with generally accepted government auditing standards and included such tests of
internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. We discussed our
observations and conclusions with management officials on August 17, 2009, and
included their comments where appropriate.

PRIOR AUDIT COVERAGE

                                                                  Final
                                                  Report         Report      Monetary
                  Report Title                    Number          Date        Impact
        FY 2009 Financial Installation           FF-AR-09-099   2/20/2009      $448,189
        Audit – Versailles Business Mail
        Entry Unit, Versailles, KY
        FY 2009 Financial Installation           FF-AR-09-083    2/2/2009           $0
        Audit – New Haven Business Mail
        Entry Unit, New Haven, KY
        FY 2009 Financial Installation           FF-AR-09-019   11/20/2008          $0
        Audit – Corbin Business Mail Entry
        Unit, Corbin, KY
        FY 2008 Financial Installation           FF-AR-08-252    8/7/2008           $0
        Audit – Danville Business Mail
        Entry Unit, Danville, KY
        FY 2008 Financial Installation           FF-AR-08-206   6/17/2008           $0
        Audit – Winchester Business Mail
        Entry Unit, Winchester, KY
        FY 2008 Financial Installation           FF-AR-08-034   11/29/2007          $0
        Audit – Marion Business Mail
        Entry Unit, Marion, KY
        FY 2007 Financial Installation           FF-AR-07-176   5/31/2007           $0
        Audit – Harold Business Mail Entry
        Unit, Harold, KY




                                                     7
Fiscal Year 2009 Kentuckiana District Business                               FF-AR-09-221
 Mail Entry Unit Financial Risk Audit


Management agreed with our findings and recommendations in these prior audits;
however, we identified repeat findings with controls over timely postage statement entry
and inactive accounts. In four of seven audit reports, we identified 168 postage
statements entered into PostalOne! anywhere from 1 to 22 days late and reported a
non-monetary impact of $531,975. In one of seven audit reports, we identified two
inactive postage due accounts totaling $410.




                                                 8
Fiscal Year 2009 Kentuckiana District Business                                                       FF-AR-09-221
 Mail Entry Unit Financial Risk Audit


                                APPENDIX B: DETAILED ANALYSIS

Closing Advanced Deposit Accounts

District management did not effectively monitor9and require units to close all cancelled
and inactive advance deposit accounts.10 District management thought they effectively
monitored the advanced deposit accounts based on the FY 2009 District Manager
Financial Control – Eastern Area scorecard; however, we determined the scorecard did
not identify all potentially inactive accounts.

The May 2009 Eastern Area scorecard identified 661 inactive accounts. Of those, there
were 279 inactive accounts (valued at $24,057) identified for the Kentuckiana District.
However, according to a BMA Non-Active Accounts Report,11 as many as 14,836
inactive accounts (valued at $1,482,642) existed in the Eastern Area as of May 2009.
Of those, the report noted 1,501 potentially inactive accounts12 (valued at $178,082)
existed in the Kentuckiana District.

                Inactive Accounts per the Area Scorecard and BMA Report
                                     As of May 2009

                                              Number of          Compliance
                                               Inactive            Rate13              Book Value
               Area/District                  Accounts          (Percentage)          (Thousands)
     Eastern Area
           Eastern Area Scorecard                       661                    99                $103
           BMA Report                               14,836                     86              $1,483
     Kentuckiana District
           Eastern Area Scorecard                       279                    98                  $24
           BMA Report                                 1,501                    88                $178

The area scorecard used data provided by headquarters (which is also on their
website). Area management considered accounts inactive when they were classified as
“Inactive, Cancelled, Denied, or Deleted” in the reports. The reports also showed all the
accounts labeled as “Active” in PostalOne! that have not had a mailing during the past
24 months. Because the Postal Service defines inactive accounts as accounts for
which no mailing activity occurred for 2 years, we considered these potential inactive

9
  Handbook DM-109, Table 1-1, BME Manager Responsibilities.
10
   Handbook F-101, Field Accounting Procedures (FAP), Section 16-7; Handbook DM-109, Section 5-9.3.4; FAP,
Section 17-6.
11
   The report is obtained from the BMA website and is based on PostalOne! data.
12
   This number may include some accounts that may not be inactive (e.g., Periodicals accounts that have not mailed
in over 24 months at the original entry unit). However, it is a more realistic number than 279.
13
   Measures the percentage of active versus inactive accounts in the district.




                                                         9
Fiscal Year 2009 Kentuckiana District Business                                                                             FF-AR-09-221
 Mail Entry Unit Financial Risk Audit


accounts and believe the area and districts should monitor them. The area did not
include those accounts without activity during the past 24 months in the scorecard
because BMA headquarters did not clearly identify them as inactive accounts in the
weekly updates sent to area Managers.


          Inactive Accounts per the Area Scorecard Versus Potential Inactive
                            Accounts per the BMA Report

                                              Area Scorecard             Potential Inactives



                   4055       3983
                                         3709        3675
                                                                    3371
                                                                                3259




                                                                                               1657
                                                                                                          1501
                                                                                                                     1175



                                                                                               352        279
                   49         57         59          53             26           32                                   70
               Oct‐08     Nov‐08     Dec‐08      Jan‐09     Feb‐09         Mar‐09      Apr‐09         May‐09     Jun‐09




As a result of not effectively monitoring inactive accounts, we determined the five units
we visited did not close 382 cancelled and inactive accounts totaling $123,560.14 We
consider this amount to be monetary impact, categorized as recoverable revenue loss.

Since our audit visits, the units closed 366 of the 382 cancelled and inactive advanced
deposit accounts.

Timely Entering Postage Statements

District management did not effectively manage the accurate and timely entry of
postage statement data into the PostalOne! system, in part because management
reports used to monitor timeliness were incorrect. We noted PostalOne! users at the
sites we visited did not always record the date of mailing correctly in system records.
We reviewed 404 postage statements and identified 92 entered into PostalOne!




14
  This includes $22,987 refunded to Account Identifier Code (AIC) 126, Miscellaneous Non-Postal Revenue; $83,006
refunded to AIC 122, Permit Imprint - Standard - Periodical Denied; and $17,567 for 16 inactive accounts without
resolution.




                                                               10
Fiscal Year 2009 Kentuckiana District Business                                                            FF-AR-09-221
 Mail Entry Unit Financial Risk Audit


anywhere from 1 to 13 days after the date of mailing. Appendix C presents the non-
monetary impact totaling $108,18215 for revenue at risk. During our audit, we noted:

     •    The BMA Delayed Postage Statement reports indicated the district had 104
          postage statements entered late. However, we found that 42 of them were
          entered on time; thus, 62 postage statements were actually entered late. We
          found that unit employees did not know how to change a mailing date when the
          mailer-provided date was inaccurate or did not change dates of mailings when
          reentering previously disqualified mailings. For example, when customers submit
          Postal Wizard16 statements electronically in PostalOne! one day, but bring the
          mail to the unit the following day, acceptance personnel must update the date of
          mailing in PostalOne! to reflect the date they verified the mail and released for
          processing.17

     •    Management reports indicated that 8,777 permit imprint and Periodicals
          statements were entered on time. We examined a random sample of 300
          statements and found employees entered 30 of these late. Based on that
          sample, we estimate the five units actually entered 456 of the 8,777 postage
          statements late into PostalOne! (see Appendix C). However, because unit
          employees forgot to correct mailing dates or did not realize the mailing dates in
          PostalOne! must reflect the date mail was released to operations,18 PostalOne!
          showed an incorrect date. For example, in one unit, employees used the date
          they received the paperwork as the date of mailing for one periodical, even
          though they processed the mail days earlier. Employees thought they should
          record the later date as the date of mailing so the statement would not appear
          late.
                                           Reported Late         Not Reported Late
                                                  Number of
                                      Number of               Number of Number of
                                                  Statements
                                      Statements              Statements Statements
                                                     Input
                                       Sampled                 Sampled    Found Late
             Unit Name                              Timely
         Louisville                           31           28         60            1
         Campbellsville                       40            0         60            8
         Lexington                            14            3         60            7
         Evansville                            2            1         60           14
         Lebanon Junction                     17           10         60            0
                Totals                       104           42        300           30


15
   We determined the value of 62 late statements, reported as such, was $33,754; and we estimated $74,428 as the
dollar value of late postage statements, not reported as such, for the audit period based on a statistical projection of
the results of our sample. See Appendix C.
16
   Postal Wizard provides mailers a secure method for entering postage statements electronically in PostalOne!.
Small mailers who send less than 2,000 pieces per month typically use Postal Wizard.
17
   Handbook DM-109, Table 3-6.1, item 18.
18
   Handbook DM-109, Table 3-6.1, item 18.




                                                           11
Fiscal Year 2009 Kentuckiana District Business                                                        FF-AR-09-221
 Mail Entry Unit Financial Risk Audit


Additionally, in four of seven financial installation audit reports issued for BMEU sites in
the Kentuckiana District over the past 3 years, we identified 168 postage statements
entered into PostalOne! anywhere from 1 to 22 days late and reported a non-monetary
impact of $531,975.19

Through interviews and a review of unit records, we found that Kentuckiana District
management uses data from the BMA website to monitor the timely entry of postage
statements into PostalOne! weekly. Management stated they took no action other than
messaging, even for poorly performing units, because the district average for late
statements indicated by the reports is usually under 2 percent. District management is
required to review timely postage statement entry procedures with unit management
monthly.20

While Sarbanes-Oxley messaging and newsletters communicated the need to enter
postage statement data timely, employees reported they received little guidance on how
to determine the date of mailing, especially as it relates to unusual situations such as
time-sensitive Periodicals, manifest mailings dropped overnight, mailings entered at
convenience deposit points, or bypassed and disqualified mailings. Subsequently, we
believe the reports Kentuckiana District Managers used to gauge compliance may not
be a reliable indicator of performance.




19
   FY 2009 Financial Installation Audit – Versailles Business Mail Entry Unit, Versailles, KY (Report Number FF-AR-
09-099, dated February 20, 2009); FY 2009 Financial Installation Audit – Corbin Business Mail Entry Unit, Corbin, KY
(Report Number FF-AR-09-019, dated November 20, 2008); FY 2008 Financial Installation Audit – Danville Business
Mail Entry Unit, Danville, KY (Report Number FF-AR-08-252, dated August 7, 2008); FY 2008 Financial Installation
Audit – Winchester Business Mail Entry Unit, Winchester, KY (Report Number FF-AR-08-206, dated June 17, 2008).
20
   Handbook DM-109, Exhibit 1-1, page 2, Revenue Protection Responsibilities, item 12.




                                                         12
Fiscal Year 2009 Kentuckiana District Business                                FF-AR-09-221
 Mail Entry Unit Financial Risk Audit


              APPENDIX C: CALCULATION OF NON-MONETARY IMPACT

This table presents non-monetary impact for postage statements not entered timely.
The chart includes 62 late postage statements the Postal Service was aware of, as well
as our projections of late postage statements recorded as on time.

                       Finding                   Description    Amount
            Sixty-two late postage               Revenue at         $33,754
            statements identified by the         Risk
            Postal Service and
            confirmed by the OIG.
            Projected 456 postage                Revenue at           $74,428
            statements recorded as               Risk
            timely were actually late.
            Total                                                    $108,182

Projection for Late Postage Statements Recorded as Timely

Our objective was two-fold: to statistically project the proportion of postage statements
in the universe of statements recorded as entered timely (which in fact were not entered
timely) and to statistically project the revenue amount associated with statements in the
universe which were not entered timely.

To accomplish these objectives, at each of the five offices visited, we randomly selected
60 postage statements from the universe of statements reported as timely entered, for a
total sample size of 300 statements from a total universe of 8,777. This sample design
comprises a two-stage design where the elements of the first stage, or the primary
units, are the offices and the second stage units are the postage statements.

To project the proportion of the universe of postage statements not entered timely, we
used the point estimate of 5.20 percent (456 statements) with a 95 percent confidence
level. For the projection of revenue associated with postage statements not timely
entered, we calculated as a conservative amount, $74,428, which is the lower bound of
a two-sided 90 percent confidence interval. We can be 95 percent confident the
population parameter we are estimating is at least as great as this number.




                                                  13
Fiscal Year 2009 Kentuckiana District Business              FF-AR-09-221
 Mail Entry Unit Financial Risk Audit


                        APPENDIX D: MANAGEMENT’S COMMENTS




                                                 14
Fiscal Year 2009 Kentuckiana District Business        FF-AR-09-221
 Mail Entry Unit Financial Risk Audit




                                                 15
